<html>
<title> - THE OPIOID CRISIS: IMPLEMENTATION OF THE FAMILY FIRST PREVENTION SERVICES ACT (FFPSA)</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                THE OPIOID CRISIS: IMPLEMENTATION OF THE
           FAMILY FIRST PREVENTION SERVICES ACT (FFPSA)

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2018

                               __________

                          Serial No. 115-HR08

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-873                   WASHINGTON : 2019       
         


                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   RICHARD E. NEAL, Massachusetts
DEVIN NUNES, California              SANDER M. LEVIN, Michigan
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
MIKE KELLY, Pennsylvania             LINDA SANCHEZ, California
JIM RENACCI, Ohio                    BRIAN HIGGINS, New York
KRISTI NOEM, South Dakota            TERRI SEWELL, Alabama
GEORGE HOLDING, North Carolina       SUZAN DELBENE, Washington
JASON SMITH, Missouri                JUDY CHU, California
TOM RICE, South Carolina
DAVID SCHWEIKERT, Arizona
JACKIE WALORSKI, Indiana
CARLOS CURBELO, Florida
MIKE BISHOP, Michigan
DARIN LAHOOD, Illinois
BRAD R. WENSTRUP, Ohio

                     Gary J. Andres, Staff Director

                 Brandon Casey, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    ADRIAN SMITH, Nebraska, Chairman

JACKIE WALORSKI, Indiana             DANNY DAVIS, Illinois
CARLOS CURBELO, Florida              LLOYD DOGGETT, Texas
DAVID SCHWEIKERT, Arizona            TERRI SEWELL, Alabama
DARIN LAHOOD, Illinois               JUDY CHU, California
BRAD R. WENSTRUP, Ohio
DAVID G. REICHERT, Washington


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 24, 2018 announcing the hearing.................     2

                                WITNESS

Jerry Milner, Associate Commissioner, Children's Bureau, and 
  Acting Commissioner, Administration on Children, Youth and 
  Families, United States Department of Health and Human Services     6

                    MEMBER QUESTIONS FOR THE RECORD

Rep. Danny K. Davis to Jerry Milner..............................   142
Rep. Jackie Walorski to Jerry Milner.............................   144
Rep. David Reichert to Jerry Milner..............................   144
Rep. Judy Chu to Jerry Milner....................................   144
Rep. Adrian Smith to Jerry Milner................................   146
Rep. Danny K. Davis to Jerry Milner..............................   147
Rep. Brad Wenstrup to Jerry Milner...............................   159
Rep. Lloyd Doggett to Jerry Milner...............................   159
Rep. Terri Sewell to Jerry Milner................................   161
Rep. Judy Chu to Jerry Milner....................................   161
Rep. John Lewis to Jerry Milner..................................   163
Rep. Carlos Curbelo to Jerry Milner..............................   164

                   PUBLIC SUBMISSIONS FOR THE RECORD

Zero to Three, statement.........................................   166
CSH, statement...................................................   176
FamiliesFirst Network of Lakeview, statement.....................   180
Florida Coalition for Children, statement........................   181
Karin Axner, statement...........................................   183
Children's Home Society of America, statement....................   185
Alliance for Strong Families and Communities, statement..........   189
County of Los Angeles Department of Children and Family Services, 
  statement......................................................   195
Eagle Accreditation, statement...................................   198
Never Too Late, Inc., statement..................................   200
The Methodist Home, statement....................................   201
New York State Office of Children and Family Services, statement.   203
Center for Fiscal Equity, statement..............................   213


                   THE OPIOID CRISIS: IMPLEMENTATION



                     OF THE FAMILY FIRST PREVENTION



                          SERVICES ACT (FFPSA)

                              ----------                              


                         TUESDAY, JULY 24, 2018

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 1100, Longworth House Office Building, the Honorable 
Adrian Smith [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
                                

    Chairman SMITH. The Subcommittee will come to order. 
Welcome to today's hearing on the implementation of the Family 
First Prevention Services Act.
    After steady declines in the number of children in foster 
care, we have, unfortunately, begun to see an increase again. 
Both the data and the experience of those on the front lines 
indicate substance abuse, specifically opioid use and overdose, 
are a contributing factor.
    More than 3 years ago, this Subcommittee set out to reverse 
this trend and do what Americans across this country expect of 
us. We worked together across the aisle and across the Capitol. 
Inspired by a desire to improve outcomes for children, we knew 
we had to strengthen families, whether they are biological, 
foster, or adoptive.
    We remained steadfast to the questions we were hearing from 
former foster youth, such as, ``Why did you take me away,'' 
``Why didn't you help my mom,'' or ``Why didn't you help my 
dad?'' Backed by research in the field, we set out to change 
the role of Federal taxpayer dollars in foster care and 
adoption. We wanted to reset the incentives and focus resources 
earlier, with upfront prevention services for substance abuse, 
mental health, and parenting for all families, so fewer 
children would have to experience additional trauma of being 
removed from his or her home.
    We listened to advocates, researchers, States, providers 
and, most importantly, foster youth during the multiyear policy 
development process. For me, one of those voices was Nebraska's 
own Boys Town and Reverend Steven Boes, where, for more than 
100 years, Boys Town, has been helping children and healing 
families. Feedback from Boys Town helped us further our goal of 
providing the right kind of supports at the right time for each 
child in care.
    Now, 6 months after the enactment of the Family First 
Prevention Services Act, we return to talk about the 
implementation of this important law, again using those same 
voices to drive our questions today.
    To provide the answers, we are pleased to be joined by HHS 
Associate Commissioner for the Children's Bureau and lead 
policy official for the implementation of Family First, Jerry 
Milner. He brings with him more than 40 years of practice, 
management, and technical assistance experience in child 
welfare at the local, State, and Federal levels of government. 
He has been a busy man over the last 6 months, traveling the 
country to spread the word about Family First and address 
outstanding questions.
    Thank you, Mr. Milner, for being here today and for all of 
your efforts to Family First.
    I also want to commend my home State of Nebraska for being 
on the leading edge of implementation and setting a strong 
example for others under the leadership of Dr. Courtney 
Phillips, CEO of the Nebraska Department of Health and Human 
Services; and Director Matthew Wallen of the Division of Child 
and Family Services, DCFS.
    In June, DCFS hosted a kickoff meeting, marking the 
official start of the State's efforts to implement the act and 
included a number of child welfare stakeholders, such as 
judges, advocates, providers, families, and others often 
involved in the State's child welfare system.
    This type of cross-collaboration is precisely what Family 
First is all about and will create the type of positive systems 
change to improve outcomes for children and families for years 
to come.
    They also set up working groups on specific topics which 
need to be addressed under Family First, and those groups will 
be meeting regularly over the next few months to develop 
strategies for implementing Family First. Nebraska DHHS also 
created a website where the public can engage in the process of 
implementing Family First and monitor the progress.
    The use of technology also exists to their creative 
thinking families in the rural and sometimes remote areas of 
our state when it comes to providing prevention services. And 
they are thinking about ways to dovetail Family First with 
their existing ``Bring Up Nebraska'' initiative, which is a 
primary prevention program focused on developing nurturing 
communities to raise strong and healthy children.
    Every State is different and will have to chart its own 
course for Family First, but States like Nebraska, Oregon, and 
others are showing it can be done when everyone focuses on what 
is truly important: better outcomes for children and families.
    I now recognize the distinguished Ranking Member, Mr. 
Davis, for 5 minutes for his opening statement.
    Mr. DAVIS. Thank you, Mr. Chairman.
    And before getting into my opening comments, I would like 
to recognize my colleague Congresswoman Karen Bass, who is here 
today observing our hearing. Congresswoman Bass is a tremendous 
leader on foster care issues, was a valued partner and resource 
throughout our efforts to enact this landmark change in foster 
care. I look forward to continuing to work closely with her and 
as we implement the law. And I might indicate that she also 
organized the foster care caucus that any number of us are 
members of.
    Mr. Chairman, thank you for scheduling this bipartisan 
oversight hearing. Child welfare is a deeply important issue to 
me and to the people of Illinois. I am grateful that we are 
working together so closely to ensure effective implementation 
of the landmark new law, the Family First Prevention Services 
Act, or Family First.
    Frederick Douglas was fond of saying that it is easier to 
build strong children than to repair broken men. There are very 
few places that this lesson is more evident than in our 
troubled foster care system, which has historically provided 
help only when it was too late to keep families together.
    When I ask foster youth what policymakers could do to make 
child welfare better, they almost always say: ``You could have 
helped my mom and dad.''
    That is exactly what we tried to do in Family First.
    I am proud of our work together to enact this law to 
fundamentally shift child welfare from separating families to 
strengthening them, but our work is not done until children and 
families receive the help that they were promised. That is why 
we hold this hearing today, and that is why we will continue 
our active involvement in its implementation.
    Family First provides a number of opportunities to 
strengthen families and build strong children. For families 
struggling with mental health, substance abuse, or parenting 
skills and challenges, it will provide uncapped Federal 
matching funds for State services to address those challenges 
and to make foster care unnecessary. Importantly, these 
services are available to parents, children, and other family 
members. They are also available to youth in foster care who 
are pregnant and those who are parents, both mothers and 
fathers, to prevent the cycle from repeating.
    To trigger the Federal investment in these services, States 
will need to develop prevention plans and provide a 
contribution. Child welfare advocates state that local 
officials and State legislators have told us they have a number 
of questions that need to be answered so that we can do that. 
We will ask our questions today, and we hope to get answers 
that will support positive action.
    Another aspect of the new law that is close to my heart is 
the opportunity to better support grandparents and other 
kinship caregivers. My congressional district has the highest 
percentage of children living with grandparent caregivers in 
the Nation. We know that if children can't live safely with 
their parents, being with family is the next best option. But 
these kin caregivers need help and support.
    I commit to personally making sure that the new Federal 
funding for kinship navigators provides services to all 
grandfamilies that need them and that States update their 
policies to involve and support kin.
    The Department of Health and Human Services has already 
begun issuing policy guidance and soliciting applications for 
kinship navigator funds and regional partnership grants to 
address family substance abuse that will be available even 
before the permanent prevention funding, but there is a great 
deal of work to do.
    I appreciate Jerry Milner for being here with us today to 
answer our questions and his commitment to making the law a 
success. I look forward to working with the administration as 
we move ahead on behalf of the families we represent.
    Thank you, Mr. Chairman, and I yield back.
    Chairman SMITH. Thank you, Mr. Davis.
    I would like to welcome our witness to the table: Mr. Jerry 
Milner, Associate Commissioner at the Children's Bureau and 
Acting Commissioner of the Administration on Children, Youth 
and Families, and with the United States Department of Health 
and Human Services.
    Our witness is reminded to limit his oral testimony to 5 
minutes. And certainly, your written statement will be included 
in the record. I would also like to remind our witness and 
Members that time is limited today and that the topic for 
today's hearing is oversight of the implementation of Family 
First Prevention Services Act.
    While there are certainly many important issues we are all 
facing today, this hearing is part of a larger effort to make 
Family First a success by addressing outstanding questions that 
are holding States back from moving forward on this very 
important legislation.
    I would kindly suggest that if there is a veering off 
track, I will not hesitate to make sure that we bring the 
hearing back to its primary focus.
    With that, Mr. Milner, you may begin when you are ready.

 STATEMENT OF JERRY MILNER, ASSOCIATE COMMISSIONER, CHILDREN'S 
 BUREAU, AND ACTING COMMISSIONER, ADMINISTRATION ON CHILDREN, 
  YOUTH AND FAMILIES, UNITED STATES DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Mr. MILNER. Thank you, Chairman Smith, Ranking Member 
Davis, and Members of the Subcommittee. Thank you very much for 
inviting me here today to testify about something that is near 
and dear to me and the work that I have done over many years 
now.
    I also want to acknowledge the large number of former 
foster care youth who are in the room today, many of whom I 
know and have had the pleasure of meeting with over time. I 
unabashedly say that their voice gives me a voice, and it means 
a lot to me that they are here today.
    I began my career as a case----
    Chairman SMITH. One moment. If you don't mind my 
interruption, former foster youth in the audience, would you 
raise your hand? Very good. It is great to have you here. And, 
again, I apologize for interrupting, but your input is very 
valuable, and we are glad you are here. Please proceed.
    Mr. MILNER. Thank you. I began my career as a case-carrying 
social worker, and child welfare has, frankly, remained my 
life's work. Before joining the administration, my experience 
in child welfare included providing technical assistance to 
States to improve services to children and families as well as 
serving as Alabama's State child welfare director.
    In more than four decades of work in child welfare, I have 
seen far too many situations where all the factors that place 
children at risk of serious harm went unaddressed by the child 
welfare system until a serious injury, psychological damage, or 
something much worse occurred. These things do not typically 
happen because of a lack of will or a lack of skill within the 
child welfare workforce but, rather, because of the way our 
system has been designed and funded.
    Traditionally, the majority of Federal funds have been used 
for foster care, and in comparison we spend only a tiny 
fraction of Federal funds for actual prevention of child 
maltreatment before children become known to child welfare 
agencies. It does not have to be that way.
    I am pleased to report to you that we have made significant 
progress in implementing the Family First Act, and we are 
absolutely committed to timely and effective implementation.
    By permitting, for the first time States and Tribes to use 
title IV-E funds to prevent children from entering foster care, 
the Family First Act provides a pathway for the child welfare 
system to help some families stay together rather than placing 
their children in foster care. Our approach to Family First 
implementation allows for as much flexibility as the statute 
permits. We do not intend to regulate definitions of key 
concepts beyond what is already in the statute. We will also 
strive to provide maximum flexibility to States and Tribes in 
claiming funding for prevention services. Our first program 
instruction to States and Tribes was published on May 31st and 
addressed the amendments to title IV-B of the Social Security 
Act and the Chafee Foster Care Independence Program. Our 
program instruction on the amendments to title IV-E, the Foster 
Care Prevention and Permanency Program, was published on July 
9th.
    In order to participate in the new title IV-E Prevention 
Services Program, States and Tribes will submit a plan to us 
that describes how they will carry out the program. We will 
provide information to States and Tribes on how to submit this 
plan in a further program instruction that we expect to publish 
in the first quarter of Federal fiscal year 2019.
    We are in the process now of procuring contract support to 
create the clearinghouse that will identify interventions that 
satisfy the requirement for reimbursement under the Prevention 
Services Program, and we expect to award a contract in the 
coming weeks.
    I also want to acknowledge a few of the implementation 
challenges that States and Tribes, as well as other 
stakeholders in the child welfare community, are sharing with 
us. We have heard concerns about the availability of the array 
of prevention services needed to be effective, about developing 
alternative placement options for children in congregate care 
who may not be able to succeed in a foster family home, about 
the expensive upfront cost of evidence-based programs and about 
the time limits on reimbursable prevention services in light of 
wait lists and delays in getting families into services. Some 
States that have had the flexibility of title IV-E waivers for 
quite some time are also concerned about the loss of that 
flexibility.
    While some of these challenges are undoubtedly very 
complex, we are committed to providing States and Tribes with 
assistance to promote their opportunities for success. Creating 
a child welfare system that we can be proud of as a Nation and 
one that children, families, and communities will see as a 
source of support and strength as opposed to a system to fear 
will take collaboration across the three branches of 
government.
    We have a collective duty and a responsibility to ensure 
that Federal policy and funding protects children to the best 
extent possible, which includes living in resilient, healthy 
families. I look forward to working with you as we continue 
implementation, and I am happy to answer your questions.
    Chairman SMITH. Thank you, Mr. Milner. Thank you for 
sharing your insight and expertise.

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman SMITH. In preparation for this bipartisan hearing 
on implementation, Ranking Member Davis and I solicited 
questions directly from States and their representative 
organizations. In total, we received nearly 200 questions, and 
today we are going to do our best to get them answered so 
States can continue to move forward with the important task of 
implementing this important bill to strengthen families and 
improve outcomes for children.
    We heard States greatly appreciate the Children's Bureau's 
efforts to provide summaries and overviews through the recent 
program information releases, but State and local leaders 
request more specific information on timelines for policy 
releases and expected implementation milestones, both for the 
Children's Bureau as well as for implementing State agencies.
    We also heard human services leaders and child welfare 
administrators welcome the opportunity to implement a new 
vision for child welfare and to expand the continuum of 
services oriented toward prevention.
    In order to move forward with key decisions on 
implementation or delay, budget forecasting, workforce 
planning, community-based partner engagement and State 
legislative activities, State and local leaders need a more 
concrete and regular communication and guidance from the 
Children's Bureau to facilitate implementation.
    Please tell us more about the timeline for upcoming 
guidance, what States can expect will be included and not 
included in upcoming guidance, also timelines for States taking 
action, submitting plans and the like. And for States that are 
delaying, how are those timeframes impacted? On the issue of 
State option to delay implementation for 2 years, the law is 
explicit that States have full control over their decision to 
delay implementation, but yet the program guidance mentions no 
less than six times approval by HHS and asks for a decision by 
November 9.
    There was no deadline requirement for this decision in the 
law, and by expecting a decision now for a year later appears 
to push States to make rushed decisions about these important 
reforms before thoughtful consideration and discussions can 
happen with various stakeholders, before the results of State 
elections allow new policymakers to make decisions about 
resource allocations, and before State and local budgets are 
finalized that would impact the State's ability to implement 
these reforms.
    I understand the November 9th deadline is not binding but 
merely for planning purposes, and a State can change its mind 
at any point, both to go ahead or delay. Is that correct?
    Mr. MILNER. That is correct.
    Chairman SMITH. Thank you. On the topic of what families 
will be eligible for prevention--what families will be eligible 
for prevention services, known as the candidate of imminent 
risk issue, I would like to highlight what you said in your 
written and oral testimony. The Children's Bureau does not 
intend to regulate a definition beyond what is already in law, 
correct?
    Mr. MILNER. That is correct.
    Chairman SMITH. Does this mean States should be setting out 
to define it themselves and, if they wanted to in the future, 
could adjust it?
    Mr. MILNER. Presumably so. States have flexibility under 
the current title IV-E Foster Care Program to make certain 
decisions about who is a candidate there. We want to give them 
that maximum flexibility there as well, and we don't intend to 
impose any restrictions on those definitions beyond what is 
already in statute.
    Chairman SMITH. Okay. Very good. Can you reflect a little 
bit on the timelines that I mentioned earlier?
    Mr. MILNER. Yes, sir. I am happy to. Let me first of all 
say we are absolutely committed to timely implementation, but 
we are also committed to doing it well. I am far more 
interested in seeing States truly move the culture and the 
foundation of their child welfare systems to one that is 
designed to strengthen families and gets the outcomes that 
Family First contemplates as opposed to a purely technical 
implementation that may not, in fact, improve the outcomes for 
children and families. We issued our first information 
memorandum in April of 2018, which was an overview of the 
requirements of the Family First Act. Our first program 
instruction was issued in May of 2018, which covered the 
requirements under title IV-B of the Social Security Act. Our 
second PI was issued July 9, I believe, which covers the 
requirements of title IV-E of the Social Security Act.
    We currently have in clearance a Federal Register notice in 
clearance, which will be issued regarding the Family First 
requirement that we issue model licensing standards; and we 
will be sending that information out for comment before 
finalizing it. We expect in the first quarter of Federal fiscal 
year 2019 to issue additional program instructions for both 
States and Tribes on the new IV-E Prevention Funding Program, 
which is part of Family First.
    In the meantime, I think it is important to note that while 
we recognize that States and Tribes have a tremendous number of 
questions, as evidenced by the 189 that I received sometime 
yesterday afternoon, we are trying our best to be as responsive 
as we can to those questions going forward. Many of the answers 
to those questions have been addressed in the program 
instructions. Many of those questions are addressed in the 
statute itself. Where there are gaps, we are committed to 
issuing either clarifying instructions for States and Tribes or 
meeting with them in order to answer those questions. We are 
participating in, and cohosting with the Casey Family Programs, 
a series of three listening sessions across the country to 
address State concerns and to respond to the questions. I 
participated in the first of those a couple of weeks ago in 
Seattle, and we have two more forthcoming. Even as we speak 
today, we have a State call that is being conducted to answer 
questions and to help respond to the concerns that States are 
raising with regard to the implementation of the Family First 
Act. We have four more of those calls scheduled with States.
    Chairman SMITH. Thank you. On the model licensing 
standards, you expect that to be available when?
    Mr. MILNER. Very soon. It is in clearance right now. We 
have drafted that. Within the coming weeks, that should be out 
there and available for comment.
    Chairman SMITH. So well in time for States to run that 
through their respective legislative processes?
    Mr. MILNER. Yes. Our deadline on that is October 1 of 2018. 
We will come out with that before that October 1 deadline.
    Chairman SMITH. Okay. Thank you very much.
    I now recognize the distinguished Ranking Member, Mr. 
Davis, for 5 minutes for any questions he might have.
    Mr. DAVIS. Thank you very much, Mr. Chairman.
    And, Mr. Milner, thank you again. Starting October 1, 2018, 
the Federal Government will provide a dollar-for-dollar match 
for State expenditures for the Kinship Navigator Program, which 
will help provide needed support to grandparents and other kin 
caregivers who have stepped up to keep children with their 
families and out of care. The law clearly provides this funding 
separately from the prevention funding, and it was Congress' 
intent that kinship navigator programs be allowed to serve all 
kin caregivers, not only those caring for children at imminent 
risk of foster care. This broader target population of kinship 
families is consistent with previously federally supported 
Kinship Navigator Program funding in the Fostering Connections 
to Success and Increasing Adoption Act of 2008, which is 
referenced in Family First.
    Is it your understanding of the law as well that States 
should serve a broader population of kinship caregivers beyond 
simply those caring for children at imminent risk of care?
    Mr. MILNER. Yes, sir.
    Mr. DAVIS. Thank you for that.
    Similarly, the requirement that 50 percent of interventions 
must meet the well-supported evidence standard only applies to 
the prevention services funding, not to the kinship navigator 
programs. The kinship navigator programs simply need to be 
evidence-based, which means they meet the promising standard in 
the law. Is that your understanding of the law as well?
    Mr. MILNER. I believe. I am clear that the kinship 
navigator programs must meet the evidence-based requirements. I 
am less clear in the moment about the 50 percent requirement 
there, but we will be absolutely glad to clarify that for you.
    Mr. DAVIS. Thank you very much for that.
    In your testimony, you said there might not be any models 
of kinship navigator programs that meet the evidence standard. 
What are you doing to make sure there are models available to 
States in time for States to claim funding in fiscal year 2019?
    Mr. MILNER. Well, first of all, to clarify that statement, 
we have heard from a number of stakeholders that there are not 
many or possibly any kinship navigator programs out there that 
would meet the evidentiary standards required by Family First. 
We believe one program that we have begun to look at that might 
meet those standards, and we are actually going to be pursuing 
that, hopefully, as one of our priorities in determining the 
evidence-based programs that are reimbursable under Family 
First.
    Apart from that, you mentioned the prior work that we have 
funded. We are going to be looking at those programs as 
possible candidate programs in the kinship navigator realm that 
we could fold into the list of approvable services to be funded 
under title IV-E.
    We are also working with our Office of Planning, Research, 
and Evaluation to fund a contract that is designed to build the 
evidence for promising programs out there so that we can expand 
the entire array of reimbursable services. Kinship navigator 
programs are a part of that work that is going forward.
    Mr. DAVIS. And, finally, Family First makes pregnant and 
parenting foster youth categorically eligible for prevention 
services even if their children are not at imminent risk of 
entering foster care. We wrote the language to ensure that this 
group of youth include fathers as well as mothers.
    Family First allows service provision on behalf of pregnant 
and parenting youth, meaning that services should be available 
to their kin caregiver. Does HHS plan to emphasize these 
important points in its guidance to States to ensure that they 
know teen fathers and kin caregivers of pregnant and parenting 
foster youth can also be served?
    Mr. MILNER. Absolutely. The whole issue of responsible 
fatherhood and engagement of fathers in the lives of their 
children and families is of critical importance to us. It has 
been an area that I personally have been focused on through the 
Child and Family Services Reviews since 2001, and we continue 
to work with States on ways to improve their response to that.
    I am going to add that, just a few weeks ago, I was 
fortunate enough to meet with a group of parenting youth who 
were either still in foster care or emancipated from foster 
care and a couple of those youth who were about to become 
parents. That was in your home State of Nebraska, Chairman 
Smith. That group of youth gave me a tremendous amount of 
information about how important it is that they get the 
services that they need.
    I will also say that they gave me hope. They gave me hope 
that, despite so many obstacles that they have faced, their 
goals were incredibly lofty. One of the young women in that 
meeting had strong desires of attending law school. My special 
assistant who was with me there and is also a lawyer was able 
to meet with her and link her up with some resources that she 
could begin that whole process of living out her dream and her 
goal.
    So you are raising a critical issue here, and we are 
entirely supportive of providing as much of an array of 
services to that population served under Family First as we 
can.
    Mr. DAVIS. Thank you, Mr. Chairman, and I yield back.
    Chairman SMITH. Thank you.
    I now recognize Mrs. Walorski from Indiana.
    Mrs. WALORSKI. Thank you, Mr. Chairman.
    And thank you, Mr. Milner, for being here. For all of you 
that came with him, thank you so much. Seeing your faces this 
morning gives me hope and very tangible evidence, sitting here 
today with all of you being here. Thank you so much for joining 
us today.
    The opioid crisis has put unprecedented strains on our 
communities and social service agencies. Indiana has seen a 
huge spike in the number of children in the foster care system 
due in large part to this epidemic. I was proud to vote for the 
Family First Prevention Services Act because we needed to 
reframe the conversation and to put a greater emphasis on 
prevention rather than just treating problems as they happened 
and to verify that children were being placed in quality 
settings.
    Mr. Milner, when it comes to accreditation of group homes, 
there is a lot of anxiety in my home State of Indiana. Part of 
that stems from the fact that Family First congregate care 
provisions, only facilities that meet the qualified residential 
treatment program criteria are eligible for Federal 
reimbursement. In order to meet these criteria, a facility must 
be accredited by an independent not-for-profit accrediting 
organization. I think this is a great thing. This ensures 
quality. However, the anxiety kicks in when they look at the 
fact that the process takes 1 to 2 years to complete, and there 
is a limited number of accrediting organizations who will be 
facing a significant uptick in their workload.
    How are you planning to work with States to ensure these 
aren't negative impacts on service delivery?
    Mr. MILNER. It is a tough issue, and in no way do I want to 
minimize the importance of that issue. Among the States, Tribal 
representatives, and other groups out there that I talk to, 
that is one of the top two issues that I consistently hear 
about.
    We are meeting with the different organizations that could 
potentially be involved in this. I would be misrepresenting to 
you if I said we understand completely the range of possible 
accreditation options out there. We don't have all of those 
details worked out. But in our consultation with States, as we 
are hearing about their concerns--and I mentioned that we are 
in the process of having three of these listening sessions 
around the country as well as five calls--they are raising 
those concerns to us. We are committed to developing an 
implementation strategy and a plan that will, to the best of 
our ability, address those critical concerns. It is, frankly, a 
very big concern.
    Mrs. WALORSKI. Would States with a pending accreditation be 
allowed to provide reimbursable services? And can any IV-E 
funds be made available to assist providers in being 
accredited?
    Mr. MILNER. I am not aware of any IV-E funds that would 
allow States to use that for the accreditation process. I am 
not going to speak definitively on that, but I can say that I 
am not aware of that. And could you repeat your first question, 
please? I am sorry.
    Mrs. WALORSKI. Sure. Would States with a pending 
accreditation be allowed to provide reimbursable services?
    Mr. MILNER. I am not aware of any flexibility in the 
statute that would permit that.
    Mrs. WALORSKI. Are States able to identify accreditation 
standards apart from the national standards?
    Mr. MILNER. The standards would apply to the accrediting 
body. So the body that--for example, the Council on 
Accreditation and the Joint Commission on Accreditation of 
Healthcare Organizations would probably have slightly different 
accreditation standards there. So it would depend upon the 
accrediting body that the State chose to use.
    Mrs. WALORSKI. Will standards defining trauma-informed 
program models be incorporated into those standards?
    Mr. MILNER. I think the statute does require that the 
programs, the qualified RTPs, provide services that are trauma-
informed. So they would have to be a part of that process.
    Mrs. WALORSKI. Great.
    Thank you, Mr. Chairman. I yield back. Thank you.
    Chairman SMITH. Thank you.
    I now recognize Ms. Sewell for 5 minutes.
    Ms. SEWELL. Thank you, Mr. Chairman.
    Firstly, I want to welcome our guest, Commissioner Milner, 
a fellow Alabamian. Since you went to both schools, War Eagle 
and Roll Tide.
    Mr. MILNER. War Eagle.
    Ms. SEWELL. I believe Members of both sides of the aisle 
saw the passage of the Family First legislation as a huge 
success. We all know that foster care placements are on the 
rise. In 2016, 3,769 children in my home State of Alabama, our 
home State, entered the foster care system, and over 36,000 
Alabama kids were involved in an investigation of maltreatment.
    However, the Family First Act has provided States like 
Alabama with an opportunity to invest Federal funds in 
preventive services that will keep kids out of foster care, 
wherever possible. Right now, Alabama spends about $54 million 
on foster care, but only one-fifth of that on preventive and 
permanency services.
    Under the new Family First law, this spending imbalance can 
be corrected and States like Alabama can begin to invest more 
resources in substance abuse, mental health, and parenting 
skills training. However, in order for States to successfully 
implement the new law, HHS must provide the proper guidance and 
assistance to States, which leads me to my first question.
    When the Family First law requires HHS to identify national 
model foster care licensing standards and requires States to 
report whether they have implemented them or not, the House has 
passed that provision three times that HHS should help identify 
national model foster care licensing standards. And the House 
has passed provisions three times, including voting for a 
separate bill, H.R. 2866.
    At the time that we were debating H.R. 2866, my colleague 
Mr. Kelly from Pennsylvania and I engaged in a floor colloquy 
to make very clear our intent that the National Association for 
Regulatory Administration model standards, which were the 
result of a multiyear effort incorporating input from key 
national associations and professional licensors, should be the 
foundation of such standards.
    I would like to enter for the record a copy of the model 
family foster home licensing standards from the National 
Association for Regulatory Administration.
    Chairman SMITH. Without objection.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. SEWELL. It was our expectation, Congressman Kelly and 
I, and our hope that, after reviewing the model licensing 
standards, the States would modify their own standards to 
address any inappropriate barriers to licensing relatives 
caring for children or kinship caregivers whom the child 
welfare system is increasingly relying on, often as a result of 
the opioid crisis.
    How will you encourage or how will HHS encourage these 
licensing standards?
    Mr. MILNER. Well, first of all, let me say that we have 
reviewed the NARA standards. I have personally reviewed the 
document that you have just entered into the evidence. We have 
also reviewed standards from other licensing bodies, in 
addition to State-specific and some Tribal-specific licensing 
standards as well.
    We have put that information into our proposed standards in 
a Federal Register notice which, again, is currently going 
through clearance. We expect, and will strongly encourage, 
States, Tribes, and others, including the accrediting bodies, 
to respond to give us comments before we finalize those rules 
and regulations. That is going to be forthcoming quite soon.
    Ms. SEWELL. Sure. You know, regarding the 12-month limit on 
substance abuse treatment services and family-based residential 
treatment, what happens if a patient lapses, say, in the 14th 
month? I guess I am trying to get at incidences where people 
will actually relapse after the 12-month period. Clearly, while 
there is a 2-month gap, the reality is that that person still 
needs treatment.
    Mr. MILNER. Sure.
    Ms. SEWELL. So what would happen for those who lapse beyond 
the 12 months?
    Mr. MILNER. As far as Federal title IV-E funding is 
concerned, I am not aware of provisions where the funding for 
that service could go beyond 12 months. It is a very technical 
question, and I will go back and be absolutely certain about 
that.
    Beyond that, you have hit on a concern and a challenge that 
I think many States are raising to us. While it is incredibly 
positive that we can now spend money up to 12 months for 
services that we previously could not do with very serious 
cases of substance abuse, particularly with the rise in opioid 
use right now----
    Ms. SEWELL. And the recurrence of that.
    Mr. MILNER. Yes, absolutely.
    Ms. SEWELL. I am just trying to get to the point of future 
access to treatment. And the reality is that maybe we should 
consider a longer period.
    Thank you, Mr. Chairman, for letting me extend. And thank 
you, sir.
    Chairman SMITH. Thank you.
    I now recognize Mr. Reichert from Washington State.
    Mr. REICHERT. Thank you, Mr. Chairman.
    Glad to hear that you stopped by the Casey family in 
Seattle. I have done a lot of work with them.
    I do have a question for you at the end of my 5 minutes, 
but I can't help myself; I have got to make a few comments 
first.
    First of all, I would like to thank you so much for your 
service. I know that the young people in the audience today and 
those listening, looking at your record starting as a 
caseworker and continuing on all these years to help children, 
that takes compassion and dedication. I am a 33-year veteran of 
law enforcement. And also, just for the information of the 
students and the young people in the room, I am a survivor of 
domestic violence, the oldest of seven kids, and a runaway. And 
I think you will find that most of the people up here have a 
story to tell.
    And so, when you look at us, we are people like you. We 
went through struggles and trials. And so I am assuming that 
out of all the hands that were raised in the audience, I am 
assuming all of you want to be Members of Congress. Raise your 
hand, please, who wants to be a Member of Congress. I don't see 
any hands, Mr. Chairman.
    Chairman SMITH. They may have higher expectations.
    Mr. REICHERT. How about President? Oh, there is one, okay. 
Thank you. Yeah, don't do it, somebody said.
    I just wanted to share that with you because, you know, it 
is all real formal and everything, but we care about you, and 
we are here to try and figure out a way to help. Right?
    Mr. MILNER. Thank you.
    Mr. REICHERT. So I look at this, and some have mentioned 
the opioid problem. It is just devastating our country and our 
children. And, you know, the percentage of children entering 
foster care is due to, a lot of it, parental substance abuse 
and its dramatic increase. And, in fact, every 25 minutes a 
baby is born suffering from opioid withdrawal. Every 25 minutes 
a baby is born addicted to opioids, every 25 minutes. In 
Washington State, 5,700 children were placed into foster care 
in 2016, 34 percent of infants--34 percent of infants.
    The passage of the Family First law gives us an awesome 
opportunity to bend this curve, and we can do that. So this is 
not about just children. It is not only children, but it is 
about drug and alcohol abuse. It is about human trafficking. It 
is about crime. It is about keeping families together and 
keeping children safe and healthy, keeping them in school then, 
right? If they have a loving home and a loving family, they get 
educated. They get jobs. They are successful. They have pride 
in their lives and their families. That is what this is about, 
and it is about the success of America.
    And there is one agency in Seattle that I am particularly 
close with because I have two drug-addicted grandchildren who I 
was a foster grandparent and an adoptive grandparent. And they 
went through an organization called PICC, the Pediatric Interim 
Care Center, in Kent. And what they do is they provide 
specialized 24-hour care for drug-exposed and medically fragile 
newborns. They offer treatment that allows the baby to 
completely withdraw from drug dependency and transition, and 
they want to get them home safely without medication. They want 
to keep the families together. So they work with mom and dad if 
they are around and try to keep them together. If they don't, 
then they get adopted into families like my daughter's and her 
husband's and they become a blessing to all of us.
    So how can an organization like PICC, how can we ensure and 
be sure that programs like PICC are eligible for prevention 
services funding provided by Family First?
    Mr. MILNER. They are eligible. Private agencies have long 
been a foundational part of the service delivery system in the 
child welfare system in our country. Under Family First, the 
requirements to deliver services that are evidence-based will 
still be there for the private providers, but we are actively 
encouraging State child welfare agencies to work in strong 
collaboration with their partners in the private sector, the 
rest of the public sector, the faith-based community, as well 
as other organizations.
    Mr. REICHERT. What is the process? They have got to be 
evidence-based, but what is the process, real quick?
    Mr. MILNER. Typically, they would have some sort of 
contractual arrangement with the State child welfare agency to 
be a service provider there.
    Mr. REICHERT. And meet the evidence-based?
    Mr. MILNER. Yes.
    Mr. REICHERT. I yield back. Thank you. Thank you.
    Mr. MILNER. Thank you.
    Chairman SMITH. Thank you.
    And next we have Ms. Chu from California.
    Ms. CHU. Thank you.
    Last night I went to the congressional foster care dinner 
that Karen Bass is the head of and heard very wonderful 
testimony from foster care children or former foster care 
children, who said how much Family First would change their 
lives and finally provide the resources available to keep 
families together versus letting more kids enter the foster 
care system. So I think this is certainly a step in the right 
direction.
    But States have a lot of questions about the implementation 
of this, and that includes my home State of California and my 
county of Los Angeles, which is responsible for the largest 
child welfare system in the Nation and in 2017 oversaw nearly 
35,000 children. It currently has a IV-E waiver, which has 
allowed them to provide innovative preventive services, 
including substance and mental health services to populations 
who are not title IV-E eligible, but they have also done a 
dramatic job to reduce the foster care population 23 percent 
between 2007 and 2010, and they have also reduced the number of 
children in group homes and other institutionalized settings by 
one-third.
    So I think they have been trying to do the same kind of 
goals that are in Family First. And they have also provided 
home visiting services, aftercare networks, creative 
partnerships with other community agencies like job centers, 
and reduced the number of children entering care and increasing 
permanency.
    I understand, Commissioner Milner, that you had a 
productive meeting with L.A. County about their program, and my 
first question would be whether you saw that they were making 
progress along these lines in a similar fashion to Family 
First?
    And then my second question has to do with the timeline for 
implementation and whether there can be any kind of 
consideration for those who are on the title IV-E waiver 
programs, whether there can be guidance or technical assistance 
or any kind of other consideration for counties like Los 
Angeles to help them transition from their waiver to the 
implementation of the provisions of the Family First Act.
    Mr. MILNER. Let me say that thank you very much for raising 
that issue. It is a very important issue for me and for those 
of us in the Children's Bureau. Yes, I did have a very 
productive onsite visit with Bobby Cagle and his staff in L.A. 
County. I have also met with the board of supervisors for L.A. 
County to hear their concerns; last week, I spent a couple of 
days up in San Francisco visiting a community-based program; 
and I have made visits down to San Diego as well.
    All of those programs have in common, I believe, a very 
strong commitment to moving their systems toward one that 
strengthens families, strengthens children, and prevents bad 
things from happening to children. L.A. County has done a 
tremendous amount of work there. The First 5 work, which is a 
home visiting program, is one that they are really quite proud 
of.
    The loss of the flexibility of the title IV-E waiver 
dollars is going to be a big hit for the counties in California 
because the State office has pushed those flexible waiver 
dollars down to the counties, where they have used those 
dollars to create upfront primary prevention services for 
children and families, not just preventing them from coming 
into foster care but preventing them from being maltreated in 
the first place.
    The transition to Family First means a lot of different 
things for them, including a loss of the flexibility. Even 
though they are able to use title IV-E dollars now for certain 
prevention services, Family First does not replace the entire 
flexibility that they have under the IV-E waivers right now, 
where they have a capped allocation, and they are using that 
money accordingly.
    California has expressed great interest in some sort of a 
transitional authority to continue that, to help them make the 
transition in ways that they can be even more successful with 
Family First rather than at a certain point just having to give 
up the flexibility that they have had.
    We would actually support that. And I believe that there is 
a strong need for us to do this in an orderly fashion in a way 
that allows States to plan as carefully and as thoughtfully as 
they can to move to the new system under Family First.
    Ms. CHU. Thank you so much for that answer. I really 
appreciate it.
    Chairman SMITH. Thank you.
    Now we move on to Mr. Wenstrup from Ohio.
    Mr. WENSTRUP. Thank you, Mr. Chairman.
    Thank you, Mr. Milner, for being here today. Just in the 
scheme of the big picture, I just want to share that my wife 
and I just recently experienced the joy of adoption.
    Mr. MILNER. That is wonderful.
    Mr. WENSTRUP. It is wonderful. And we would like to see 
more of that take place. It is a beautiful thing.
    And Family First presents a real opportunity to shift kind 
of the way we think about the role of Federal foster care 
dollars and how they can be more effectively spent. Our system 
in Ohio, in Cincinnati area especially, is very overcrowded. It 
is a real problem for the agencies. And we have this 
opportunity to provide alternatives for our youth, and I think 
that that is something that we all look forward to. We have 
been greatly affected by the opioid epidemic. As a matter of 
fact, that has been a huge driver of the need for an increase 
in our foster care system to be able to work.
    But Ohio has held the title IV-E waiver since 1997, and so, 
across the State, we are anxiously awaiting a timeline of how 
we deal with this transition from the waiver to Family First. 
We really need some guidance on that, and the sooner, the 
better--if we are going to be effective. We want some clarity 
on that if you can provide it, and is there technical 
assistance? I am following up on that question. But the sooner 
we can get a real timeline, it would be very, very helpful.
    And then the other thing that I am concerned about is, what 
is the process for States to identify and get approved new 
practices that are not specifically preapproved? How can we 
innovate in the areas of making this whole system work better?
    Mr. MILNER. I was fortunate enough to spend some time with 
the child welfare leadership from Ohio last week. We had teams 
of 10 people from every State come here to Washington, which 
included not just the child welfare agency but the legal/
judicial community and the prevention partners. And it was a 
pleasure to be able to spend some time at the Ohio table and 
also to hear some of their concerns.
    The process of getting services introduced into the 
approvable pool is going to be an ongoing process, as well it 
should. We will come out with an initial list of programs that 
we will be reviewing, but Family First is inspiring a great 
deal of attention to building the evidence for programs out 
there so that we hope to expand the array of services over 
time. States can submit to us programs that they want us to 
consider.
    Again, later this year, we will also again be issuing a 
Federal Register announcement that will describe that process 
for reviewing the criteria that we intend to use to review for 
programs that are reimbursable under the prevention funding 
stream and also provide guidance for States to submit those 
programs if they want us to take a look at those----
    Mr. WENSTRUP. So where are you in that stage right now? I 
mean, where----
    Mr. MILNER. I am sorry?
    Mr. WENSTRUP. Where are we as far as staging? You can 
submit an idea, an innovative idea right now. Do you have a 
particular form you fill out? Do you have to have 
documentation? I mean, I think that is what we are looking for, 
and then the timeframe of that.
    Mr. MILNER. We will contract for a clearinghouse that will 
be responsible for carrying out those activities of reviewing 
the programs, soliciting nominations or candidates for programs 
to be in that pool. The procurement is on the street at this 
point and we expect that contract to be issued by October 1.
    As soon as we get the clearinghouse procedures in process, 
those procedures, we will be able to release and move forward 
with it. States could submit programs to us right now. Clearly, 
we don't have the ability at this moment until we have the 
clearinghouse in place to actually conduct a review of those 
programs and start adding them to the bank. But we anticipate 
moving forward with that on October 1.
    Mr. WENSTRUP. And some of the ideas that people come 
forward with, are they going to be able to test the waters a 
little bit? In other words, you want to have evidence-based 
ideas, if you will, preferably. Are they going to be able to 
test the waters, try something on a small basis and then expand 
it if it is successful? Is that what we can look forward to?
    Mr. MILNER. I am not sure if I understand the question. 
Certainly, an evidence-based program could be implemented on a 
limited basis. If you want to do it in one of your counties and 
perhaps not statewide, there is nothing prohibiting you from 
doing that.
    The statute is quite specific, however, that to be 
reimbursable under the prevention funding services stream, it 
must meet the criteria for evidence-based, either at promising, 
supported, or well-supported levels.
    Our intent is to open the promising door as wide as we can 
open it, so that States can begin to use or continue to use 
services that they believe are effective in serving children 
and families while they build the evidence to get those 
services up to the higher rungs of the evidence ladder.
    Mr. WENSTRUP. Thank you. My time has expired.
    Chairman SMITH. Thank you.
    I next recognize Mr. LaHood from Illinois.
    Mr. LAHOOD. Thank you, Mr. Chairman.
    And, Mr. Milner, I also want to recognize and thank you for 
your service and your lifelong commitment to helping young 
people to succeed and all the good work that you do.
    And I also want to acknowledge the young people in the 
crowd here today. Thank you for being here. Your presence is 
important, and we are honored to have you here today as part of 
this hearing.
    Prior to elected office, Mr. Milner, I spent a lot of time 
with the Big Brothers Big Sisters organization. I was a big 
brother myself in my hometown of Peoria, Illinois, and saw the 
really good work that has gone on there. And, you know, many of 
our young people, through no fault of their own, are born into 
very difficult situations.
    And from a public policy standpoint, trying to figure out 
what we can do to help many of these good organizations, I have 
also spent time and served on a board locally, the Center for 
Prevention of Abuse, that works with young people that are 
affected by abuse and also domestic violence. And I am happy 
that we are having this discussion here today, and let me get 
into a couple issues here.
    I guess when we think about strengthening families and the 
implementation of the Family First Prevention Services Act and 
how we can make sure that this is the most efficient and 
effective program possible in this country, implementing a 
major reform in the current system comes with its challenges. 
And I want to commend your willingness to be here today and 
answer questions about this implementation of the legislation 
and to make this smooth transition for our State and the local 
stakeholders.
    It is my understanding that HHS will provide a preapproved, 
quote, clearinghouse list of evidence-based practices that the 
States will be permitted to use.
    Given that there are limited self--sorry. Given that there 
are limited well-supported evidence-based programs that have 
been tailored for child welfare populations, there is a need 
for HHS to provide guidance on States conducting these program 
evaluations so that more evidence-based programs are 
established in the well-supported category and ultimately added 
to the clearinghouse list.
    Can you talk a little bit about what is the process for 
States to identify and have approved other practices not 
specified on the preapproved list of the evidence-based 
programs?
    Mr. MILNER. Again, going back to Representative Wenstrup's 
question, we will come out with our final guidance on that 
later this fall, once the clearinghouse established and we have 
those procedures in place. I can't tell you precisely that they 
are going to fill out a form or we are going to respond in a 
certain period of time, but there will be a clearly defined 
process so that we can identify services that States and Tribes 
want to use.
    As soon as we get the comments back on the criteria, the 
process, and the priorities for reviewing those services, we 
will be in a much better position to guide States on how they 
can raise or elevate their services for consideration.
    Mr. LAHOOD. Additionally, Mr. Milner, is Federal 
reimbursement available for evaluation activities of time-
limited services?
    Mr. MILNER. The only funding that I believe Family First 
allocates for that is for us to use the clearinghouse and the 
technical assistance. One million dollars, not a whole heck of 
a lot of money, was allocated for us to do that.
    When we have the clearinghouse in place, it will offer that 
level of technical assistance, to the extent that the funding 
allows it to, on evaluation and implementation of those 
services within the States.
    Mr. LAHOOD. Got you. Well, we look forward to working with 
you as a committee and wish you much success. Thank you.
    Mr. MILNER. Thank you so much.
    Chairman SMITH. Thanks. Next, I recognize Mr. Schweikert 
from Arizona.
    Mr. SCHWEIKERT. Thank you, Mr. Chairman. Like Dr. Wenstrup, 
we have an adopted daughter. As a matter of fact, she is third 
generation adopted now in the family, so obviously we are doing 
something wrong. Come on. Can I walk you through, though, first 
I know antidotes aren't policy, but they give you a little bit 
of a window. Three years ago, my wife and I spent a summer 
getting certified to be foster parents. And we had, you know, 
folks from the State come as trainers. We had an agency. It was 
a trainer. It was very comprehensive, and sometimes the 
conversations were absolutely devastating, and heartbreaking. A 
couple of the most stressful evenings I ever had with my wife 
were the drive home when we had foster families that had been 
in fostering for 20 years and the roller coaster that their 
lives were.
    We also heard repeatedly, particularly in a State like 
Arizona, there was a tremendous shortage of those parents, 
either those households that were ready to do short-term, long-
term, older kids. So I guess I am asking you saying, okay, we 
have done a piece of legislation. There is all sorts of 
evidence base, so we have much better math and statistics. 
There is some resources with it. Where is the greatest 
fragility you see out there in our society? Is it a shortage of 
foster parents? Is it a shortage of good data? Is it a shortage 
of resources to do intervention for substance abuse? If you had 
to give me one, two, and three, overall, what is really missing 
out there in the system today?
    Mr. MILNER. I think we need to focus squarely on resolving 
the reasons that children need to come into foster care to 
begin with. I think that if we don't focus our efforts on the 
primary prevention of child maltreatment, we are going to 
continue to chase our tails. We are going to continue to be 
scurrying around trying to find more money in State budgets, 
more caseworkers, more lawyers, more foster homes, and we are 
going to continue to raise children in the foster care system 
who don't have all the skills they need to become healthy, 
productive adults.
    Mr. SCHWEIKERT. Okay. You are actually heading in the 
direction--so child maltreatment----
    Mr. MILNER. Yes.
    Mr. SCHWEIKERT [continuing]. Is that parents with substance 
abuse, is it households that have a mental health issue? I 
mean, and I am asking for some granularity on--and I know 
this--and I am not asking for antidotes, but I am asking, sir, 
for your perception.
    Mr. MILNER. I think it is all of the above. I think quite 
honestly, many families, if not all families, could be at risk 
of having involvement in the child welfare system with a slight 
twist of fate. The most successful programs that I am visiting 
out there I could name them: Live Well San Diego is one of 
those programs; the Center for Family Life in Brooklyn, New 
York. The list goes on. They provide services that strengthen 
families before they get into the ditch of child maltreatment 
and trauma, and can't get themselves out of that. It could be 
targeted to families that already have displayed some risk, but 
simply by strengthening families in communities and offer them 
a nonstigmatizing way to get the support they need would go a 
long way.
    Mr. SCHWEIKERT. When we use language like strengthening 
families----
    Mr. MILNER. Yes.
    Mr. SCHWEIKERT [continuing]. Give me an actual example of 
what the program in San Diego is actually doing.
    Mr. MILNER. Addressing the protective factors of families. 
We know----
    Mr. SCHWEIKERT. No, no, no, no, no. I am asking you what 
are they actually doing? They are knocking on the door, are 
they demanding drug--I mean, what are they actually doing that 
is so powerful that it reaches your top of your mind?
    Mr. MILNER. Over 300 partners have come together in San 
Diego, including the educational system, the housing system, 
the transportation system, the Chamber of Commerce, parks and 
recreation, transportation, and the child welfare system.
    Mr. SCHWEIKERT. So they built a coalition.
    Mr. MILNER. Yes.
    Mr. SCHWEIKERT. What are they actually doing?
    Mr. MILNER. They are promoting the notion of living well 
for the citizens of San Diego, regardless of what the 
particular entity is involved with. If it is the medical field, 
they address living well and in healthy ways in that domain.
    Mr. SCHWEIKERT [continuing]. For your help. Maybe I am 
just--because I am, you know, done the foster care training, I 
have a household. I have these poor kids that are just living 
in hell. How was that system there making--protecting those 
kids? What are they doing that is so unique that protects those 
children?
    Mr. MILNER. I think that they are doing a couple of things. 
I think they are trying to help those families get the concrete 
supports that they need before they get to the living hell part 
of their lives. And that is where primary prevention comes into 
play.
    Mr. SCHWEIKERT. We will do some follow-up because I would 
love more to understand the tactical.
    Mr. MILNER. Sure.
    Mr. SCHWEIKERT. Is it--and Mr. Chairman, I know I am over 
time, and I may be an outlier here. I know we passionately want 
to keep families together, but I also passionately want to 
protect these kids.
    Chairman SMITH. Thank you. And we will begin a second round 
here as we do move forward. Let me touch a little bit on 
nonchild welfare issues. Family First is unique because the 
expectation is for most of the services and interventions--the 
expectation is for most of the services and interventions to 
come from sources outside of the foster care and adoption 
agency. Therefore, it is essential for the Children's Bureau to 
take the lead and set an example for how to coordinate and 
collaborate with other agencies. How is the Children's Bureau 
working with SAMHSA, HRSA, Medicaid, and other HHS agencies on 
the development of approved programs that meet evidence 
standards to provide substance abuse, mental health, and 
parenting programs under FFPSA.
    Mr. MILNER. We have begun the process of having discussions 
with all of those agencies. HRSA, around the home visiting, 
with SAMHSA, our policy folks are already in conversation with 
CMS because Medicaid is going to be a tremendous interface 
between the work that we do. We have to sort out issues with 
Medicaid around payment for evidence-based services, payments 
in the facilities, how our board payments would interface with 
those. We are in the process now of compiling as many of the 
issues that we are aware of that we know that we need to 
resolve. We are in the early phases of that, but we are 
absolutely committed to working in partnership with those other 
Federal agencies to make this a comprehensive implementation 
process. I am scurrying around from coast to coast encouraging 
States to work in strong partnership with their local partners 
for implementation, and it would be hypocritical of me not to 
be doing the same thing at the Federal level.
    It is not just those obvious agencies that we think we need 
to have strong partnerships. We are meeting with other groups 
that will have a tremendous impact on implementation, such as 
the National Governors Association and the National Association 
of Counties. I spoke a couple weeks ago to the National 
Conference of State Legislators, and even this morning before I 
came here, I was in contact with our Head Start agency to try 
to find those interfaces, particularly in some of the very 
rural communities out there where an array of prevention 
services is going to be hard to come by.
    So we are quite aware of that, and it is very high on our 
implementation priority list.
    Chairman SMITH. Thank you. Now, also, when will States know 
more about how to handle the billing situations, like substance 
abuse services where services are eligible for Medicaid 
reimbursement and Family First, and what is being done to 
reduce the potential for double-billing?
    Mr. MILNER. That is further into the implementation process 
than we are right now. Once we are able to issue our guidance 
on the prevention services program, which will come, again, 
within the first quarter of Federal fiscal year 2019, we will 
be able to respond to those very technical questions.
    Chairman SMITH. Because I think you can appreciate that 
States might be a little reluctant to move forward, you know, 
knowing that they need to, but if there is concern that they 
may or may not be able to be reimbursed for that.
    Mr. MILNER. I do understand that. I don't think that the 
reimbursement procedures are going to be the criteria that 
States use to determine whether to go forward with the optional 
prevention services programs or not. I certainly hope it is 
not. I hope that they are thinking much more broadly about how 
they want to serve children and families, and understand that 
we are absolutely going to work with them to work out those 
very technical details that we are nowhere near being able to 
respond to right at this moment.
    Chairman SMITH. Okay. How are programs previously funded 
under various HHS grants, such as the regional partnership 
grants, pregnant and postpartum women, MIECHV home visiting, 
children affected by meth, how are they being consulted to 
provide input into this list of evidence-based programs?
    Mr. MILNER. We are taking advantage of the opportunity to 
look at the services that those programs have provided, 
particularly our regional partnership grants. I appreciate you 
bringing that up. That is one of our programs that we are 
absolutely proud of, particularly in the efforts to fight 
substance abuse issues within families. We believe that those 
programs give us a rich pool of possible interventions if the 
evidence base is there. If the evidence base is not there, they 
may also identify programs where we can focus efforts to begin 
building that evidence, because many of those programs have 
actually shown to be quite successful in getting to the desired 
outcomes.
    Chairman SMITH. Thank you. And now I will recognize Ranking 
Member Davis.
    Mr. DAVIS. Thank you, again, Mr. Chairman. Commissioner, in 
your previous answer, you suggested that Health and Human 
Services would need to individually approve any intervention 
not in the clearinghouse. We had expected you would do that by 
approving the State plan that includes the intervention. Is 
that correct, or do you plan a different approval process?
    Mr. MILNER. Given the criteria that are set forth in the 
statute for an evidence-based program, we will have to review 
the actual program itself. Simply putting it in a State plan 
will not give us the information we need to know if it meets 
the criteria in the statute.
    Mr. DAVIS. Following up on your answer to the Chairman on 
candidate for care, I appreciate that in your testimony, you 
clarified that HHS does not plan to define, and I quote, 
candidate for care on imminent risk beyond what is in the 
statute. Because the question is repeatedly asked in my State, 
I would like to know if other States are hearing the same 
question. Could you reaffirm that this means that HHS is not 
planning to issue a national definition of imminent risk, or 
candidate for care, and will instead rely on States to explain 
their State standard in their prevention plans?
    Mr. MILNER. It is not our intent, as I put in my written 
testimony, to define those concepts any further than the 
statute already defines them.
    Mr. DAVIS. Does HHS plan to issue any guidance or 
parameters for States to use as they explain their eligibility 
criteria in their State prevention plans, and if so, when will 
those be issued?
    Mr. MILNER. We will be issuing guidance on the prevention 
services program later this year. We anticipate issuing that 
guidance within the first quarter of Federal fiscal year 2019, 
and hopefully, we will be able to address those questions 
satisfactorily in that program instruction.
    Mr. DAVIS. Does the Children's Bureau intend to publish 
program guidance for States about drawing down the kinship 
navigator match before the provision becomes effective, and if 
so, when?
    Mr. MILNER. We will produce guidance on the kinship 
navigator program that should include--I am getting--that is 
getting a little bit more technical than I am prepared for, but 
the guidance that we issue on that should cover any kind of 
billing procedures. I can't imagine why it would not, but I am 
not able to--I am not able to speak any more definitively than 
that.
    Mr. DAVIS. Do you anticipate that a State would need to 
amend its IV-E plan in order to claim kinship navigator 
matching funds?
    Mr. MILNER. I don't know the answer to that question. We 
will have to get back with you on that.
    Mr. DAVIS. Under State law, or by law, HHS is required to 
provide technical assistance and disseminate best practices for 
providing and evaluating the evidence-based prevention services 
funded under Family First. Could you identify how this will 
take place?
    Mr. MILNER. We will be issuing guidance on the 
clearinghouse and that whole process in the first quarter of 
Federal fiscal year 2019, and, if I am understanding your 
question correctly, that should provide the information that 
States will need.
    Mr. DAVIS. Thank you very much, and I yield back, Mr. 
Chairman.
    Chairman SMITH. Thank you. Thank you. Next, I recognize Mr. 
Reichert from Washington State.
    Mr. REICHERT. Thank you, Mr. Chairman. And I want to kind 
of drill down into one of the issues that I mentioned in my 
first question, and that is human trafficking. And all of us on 
this panel, as I said, want to help our youth.
    Mr. MILNER. Absolutely.
    Mr. REICHERT. And most of the young people who are out 
there on the streets involved in sort of this lifestyle have 
been victimized at home, sexually abused, mentally, 
emotionally, physically, and are driven to the streets and they 
are abused, victimized again. And then back in the day when I 
was working in the sheriff's office, they were victimized once 
again by a judicial system that really didn't understand that 
these young kids are victims, not criminals.
    Today, we have been enlightened a little bit and discovered 
that really we need to help these young people involved in 
human trafficking. And the reason I know so much about this 
topic, you may or may not be aware of my background in law 
enforcement. I worked on a serial murder case for 19 years, 
called the Green River serial murder case. The person 
responsible for the murders in this case pled guilty to 49 
murders. We think he killed 60 to 70 little girls and young 
women. I personally was at body sites of scores and scores and 
scores over those years.
    So, Family First allows Federal funds for settings 
providing high quality residential care and supportive services 
to children and youth who have been found to be or at risk of 
becoming sex trafficking victims.
    Mr. MILNER. Yes.
    Mr. REICHERT. The July 9 program instruction indicates that 
ACF will not further define that setting. Does the Children's 
Bureau plan to issue any guidance about the kinds of settings?
    Mr. MILNER. About the kinds of settings?
    Mr. REICHERT. Yes, that this might entail.
    Mr. MILNER. I am not sure I am going to be able to answer 
the question completely on the types of settings. The law sets 
forth the criteria for qualified residential treatment program. 
The accreditation body would also add to any of those 
requirements there. To my knowledge, we do not have intent of 
issuing any further guidance around those particular settings, 
but I say that somewhat tentatively.
    You are absolutely correct that we do not intend to define 
victims of sex trafficking, or at risk of sex trafficking, any 
further than it has already been defined in the law.
    Mr. REICHERT. Well, I just think we need to take another 
look at that and maybe you and I can have a discussion.
    Mr. MILNER. Surely.
    Mr. REICHERT. Since children in out-of-home care are 
already at increased risk of trafficking.
    Mr. MILNER. Yes.
    Mr. REICHERT. This is going to be important for States to 
have a clear understanding, so that they can use this placement 
setting appropriately.
    Mr. MILNER. I cannot agree with you more. I have had 
several conversations with States myself around their intent 
and how they would like to define the terms of at risk of sex 
trafficking, and I believe that States are coming at it from 
different places. But part of our plan also is to allow States 
that flexibility, so that they can craft a program that will 
best meet the needs of youth in their States.
    I also just want to add, just for general interest, I 
visited one of those programs in your home State in Seattle a 
while back, and I also was fortunate enough to be able to 
attend the ribbon cutting for a drop-in center there in Seattle 
designed for youth who are victims of sex trafficking, to have 
a place to go.
    So I have seen firsthand in your State the value and the 
importance and talked to some of those youth myself about their 
experiences there, so we share that concern and commitment.
    Mr. REICHERT. I appreciate your answer. I yield back.
    Chairman SMITH. Thank you. I next recognize Ms. Chu from 
California.
    Ms. CHU. Well, I have more questions from the State of 
California. In California, each county is responsible for 
administering its own child welfare program, and California is 
made up of 58 counties. As a result, the counties vary in 
capability and capacity and access to providers who can deliver 
prevention services. So Family First requires that the 
prevention component to the State's IV-E plan must describe the 
target population for the services or programs.
    So my question is whether the State has to opt in for the 
Family First program, and do all counties and geographic 
locations have to provide the same level of prevention 
services, or can there be a targeting of those prevention 
services on a geographic basis versus having every county do 
every service?
    Mr. MILNER. Yes. It is my understanding that as you have 
said, the State has to take the option, but I do not have the 
understanding that every single county would have to provide 
the same level of service delivery. In the title IV-E waiver, 
which is admittedly a different program, there are four 
counties in California that are providing those services, so 
that is not a State-wide effort there. I see no reason why that 
could not be the same way in Family First, and frankly, would 
fully expect it to be that way. You have some very rural 
counties in California, as do the other Members in their 
States, and the reality is, many of the prevention programs are 
going to be hard to come by in those very rural areas. I don't 
think we can have a reasonable expectation that there is going 
to be a uniform level of service delivery across counties.
    Ms. CHU. My other question is about the quality residential 
treatment program, or QRTP. Those provisions in the Family 
First program have time limits that the States have to meet in 
order to be reimbursed for such a placement.
    Now, right now, California takes more than 30 days to do an 
assessment as to whether a child should or should not be in one 
of these facilities in a group home or a foster care home. I 
know that the Family First program is a step forward, because 
there is some States that don't do any assessment whatsoever, 
so there needs to be an assessment.
    Mr. MILNER. Sure.
    Ms. CHU. But my question is, whether there is any 
flexibility on the 30 days in order for the State to be 
reimbursed, because it would seem to me that the best thing 
would be to have a good assessment, what if it is 31 days? What 
would be the situation with that?
    Mr. MILNER. The statute requires 30 days. I am not aware of 
any flexibility in the statute on that.
    Ms. CHU. How about this situation: Would a State be 
reimbursed if at the 60-day court review, the court disproves 
the placement of the child?
    Mr. MILNER. I am not able to answer a question that is 
quite that technical, so we will have to respond to you in 
writing on that, I am sorry.
    Ms. CHU. And how about if a child moves from one QRTP 
program to another, would a new 30-day assessment be required?
    Mr. MILNER. That is also a very technical question that I 
don't think I am prepared to answer for you today. We will get 
back with you on that.
    Ms. CHU. Okay. I will submit those questions. Then I also 
wanted to ask about administrative costs. The requirement that 
50 percent of the State's prevention services spending be 
related to services or programs does not make clear whether 
there can be claims for administrative services like training 
and evaluation. So can administrative reimbursement for such 
things be in this program?
    Mr. MILNER. We will also have to give you a written 
response on that. I can't say definitively what is included in 
the admin costs at this point.
    Ms. CHU. Okay. I appreciate you getting back to me on that.
    Mr. MILNER. Thank you.
    Chairman SMITH. Thank you. Next is Mr. Wenstrup from Ohio.
    Mr. WENSTRUP. Thank you, just a quick follow-up question, 
if you will. Our State is one where the county administers the 
work.
    Mr. MILNER. Yes.
    Mr. WENSTRUP. So in these States like that, can the local 
areas, counties opt in or opt out, or if programs put in place, 
does it have to be statewide, or is there going to be that type 
of flexibility for the counties?
    Mr. MILNER. As I was saying to Representative Chu, I 
believe that States will have to work with their counties to 
determine where they are going to be able to offer some of the 
specific services. Whether there is a formal opt in or opt out, 
I wouldn't attempt to answer that for you at this point with 
any real confidence there. The State has to make the decision 
to be a part of the program, but then the State would have to 
work with its counties in order to determine how they were 
going to comply, particularly with the prevention services 
program. That is what I am primarily speaking about right now. 
The congregate care provisions would not be an optional thing 
for a State or a county to select from.
    Mr. WENSTRUP. I think we have to think about that because 
there may be initiatives that one or two counties really need, 
and the others don't.
    Mr. MILNER. Sure.
    Mr. WENSTRUP. And you don't want to waste money setting 
something up that another county doesn't need, but is needed 
somewhere else. So I hope that there is that type of 
flexibility that can take place within the State, so especially 
when they are being run by the county, you know, you don't want 
to make them do something they don't need.
    Mr. MILNER. Yes.
    Mr. WENSTRUP. And allow those that need something else be 
able to do it.
    Mr. MILNER. And that is entirely consistent with the vision 
that we have for child welfare in our country coming from the 
Children's Bureau right now. In addition to a strong commitment 
to moving towards a primary prevention focus of our work, we 
believe that those efforts have to happen at the county and 
community level. The best examples that I see of programs 
effectively serving and strengthening families out there are 
not necessarily happening on a State-wide level. They are 
happening in the communities where children and families live. 
That is where they can get the services and supports that are 
available to them in most situations that are culturally 
appropriate for them and that are responsive enough for them to 
sustain progress once they have made that progress.
    Mr. WENSTRUP. Well, and I have seen some of the benefits 
that a local level. One of my counties just in addressing 
poverty, was part of a short-term trial called Rural Impact. 
The caseworker had authority to make changes. I meet a family 
with six kids, and I meet the parents and, you know, they are 
living in a one-room home. And he said, I can't take a third 
shift job, I have nowhere to sleep. So she gets them into a 
home with a couple bedrooms, and they go to work. The whole 
dynamic changes. There is that local level ability to fit what 
is needed case-by-case that I really hope we are driving 
towards so that we can really have a positive fact. And this is 
a situation where the person working with you, they are not 
just a signature on a piece of paper somewhere. They have been 
to your house.
    Mr. MILNER. Exactly.
    Mr. WENSTRUP. They understand what has taken place. Anyway, 
thank you. I yield back.
    Chairman SMITH. Thank you. Next, I recognize Mr. LaHood 
from Illinois.
    Mr. LAHOOD. Thanks, Mr. Chairman. Commissioner Milner, I 
wanted to focus a little bit on criminal background checks, and 
I mentioned earlier, I was involved with the Big Brothers Big 
Sisters program, and I know when we were screening for Big 
Brothers and Big Sisters, I worked as 10 years as State and 
Federal prosecutor, so we would do the background check for 
that. And obviously it is important that we make sure we have 
the best people that are involved in the child welfare system.
    I know, for instance, there is a clear standard set for 
foster parents and adoptive parents and the background check 
there. Can you talk a little bit about the proper oversight and 
enforcement for States, and particularly, for child care 
centers, and whether there is a national standard that has been 
established and how that implementation happens, not only for 
criminal background, but for maybe other professional 
misconduct or drug use and where we are at with the 
implementation of that?
    Mr. MILNER. With regard to background checks, the Federal 
statutes address the criminal background checks, not 
necessarily the other areas that you might have some concerns 
about. We have long held a requirement that adults in a foster 
family home undergo a criminal background records check. Family 
First adds a requirement that staff, all staff of the 
congregate care facilities must now have that background check, 
which must include a check of relevant criminal databases. 
Other Federal legislation gets very specific on what would 
disqualify someone based on a background check. States do have 
some flexibilities in terms of making exceptions to those 
rules, but they are required to have very specific procedures 
in place if they want to do so.
    I actually believe Family First is a giant step forward in 
terms of requiring the background checks in congregate care 
facilities. I should note that we have had a requirement in 
place for some time that requires that States address safety 
concerns with regard to staff in a much more general way. It 
has been a part of our programs where we have found that States 
have not, across the board, done all that well with compliance.
    Under Family First, I believe we have a greater opportunity 
to enforce the more specific requirement through our review 
processes. The way that we would primarily review that from the 
Federal level is with our title IV-E eligibility reviews, where 
we would look at whether or not there was evidence that the 
criminal background checks had been conducted or not. We will 
be revising those procedures, those forms and that whole 
process to comport with Family First as we go into full 
implementation.
    Mr. LAHOOD. And I guess thinking ahead with full 
implementation, so if there is a State that is deficient in 
terms of the standard and proper oversight----
    Mr. MILNER. Yes.
    Mr. LAHOOD [continuing]. Or enforcement, what happens?
    Mr. MILNER. They are required to enter into a program 
improvement plan and make the correction. Typically, we are not 
able to withhold Federal funds until they have had an 
opportunity to correct whatever the problem is. So we work with 
the States through our regional offices to develop a process 
for making the corrective action. If they are not able to 
comply with their plan, then they would be subject to Federal 
withholding of funds.
    Mr. LAHOOD. Okay. Thank you. Those are all my questions.
    Chairman SMITH. Thank you. I want to touch on another issue 
here, and then I will certainly go to Mr. Davis for some 
follow-up as well. Maintenance of effort. We know that Family 
First was intended to supplement, not replace the State 
efforts.
    Mr. MILNER. Sure.
    Chairman SMITH. And so the need to calculate the 
maintenance of effort is certainly there. Is the Bureau going 
to provide guidance to States in terms of how they can 
calculate their maintenance of effort?
    Mr. MILNER. Yes, we will.
    Chairman SMITH. And when can the States expect those----
    Mr. MILNER. I would anticipate that that is going to be a 
part of our program instructions on the prevention program 
itself. The MOE is specific to the prevention services program, 
and the PI is where we would be able to cover that later this 
year when we issue that guidance.
    Chairman SMITH. Okay. And in terms of previous prevention 
expenditures, my understanding is that they are intended to 
mirror the services and populations that are allowable under 
Family First. Is that correct?
    Mr. MILNER. I am not sure that I can give you a definitive 
response on that.
    Chairman SMITH. Okay. If you could follow up on that.
    Mr. MILNER. Surely.
    Chairman SMITH. Maintenance of effort is not limited to 
just funds that were spent in child welfare prior to Family 
First because for nonwaiver State mental health, substance 
abuse and parenting were not funded under child welfare. Is 
that correct?
    Mr. MILNER. Correct.
    Chairman SMITH. And for waiver States that may have been 
spending on substance abuse, mental health, and parenting, how 
do you see them calculating their maintenance of effort?
    Mr. MILNER. We are going to have to give you something more 
specific on that. I am not immersed in the maintenance of 
effort part of that. It is far too technical for me to be able 
to give you any hint of a satisfactory response, but we will 
give you something in writing on that.
    Chairman SMITH. Okay. Well, I think all the States would 
appreciate that and certainly there is----
    Mr. MILNER. Surely.
    Chairman SMITH [continuing]. I know, a great deal of 
interest on that.
    So with that, Mr. Davis, do you have any follow-up?
    Mr. DAVIS. Thank you. Thank you, again, Mr. Chairman. And I 
also thank you again for holding this very important hearing.
    It is my understanding that many kinship navigator programs 
have not been evaluated so that they can meet an evidence-based 
standard.
    Mr. MILNER. Yes.
    Mr. DAVIS. What is HHS doing to support identification and 
development of additional evidence-based models for these 
important services?
    Mr. MILNER. I mentioned a little bit earlier, we fund a 
contract right now in collaboration with our Office of 
Planning, Research and Evaluation that is designed to build the 
evidence for a number of programs that are out there. Kinship 
navigator programs are a part of that effort.
    In addition to that, we are looking to the programs that do 
exist, and we have asked for comment on that, particularly in 
the Federal Register announcement that we just put out the 
criteria for evidence-based practices.
    In addition, we will be looking at the one program that we 
think might have an evidence base behind it to see if it 
comports with the criteria that are in Family First.
    Mr. DAVIS. Congress provided appropriated funds so that 
every State could receive funding for kinship navigator 
programs now, as a bridge to the Family First funding. The 
deadline for States to tell HHS their planned use of these 
funds was last week.
    Mr. MILNER. Correct.
    Mr. DAVIS. Can you tell us how many States applied and how 
HHS plans to reallocate any funds which were not claimed?
    Mr. MILNER. Forty-five States, two territories, and eight 
Tribes have indicated to us that they intend to apply for those 
funds. Since it is not every one of the States, there will be 
some balance that is left over, and we will have to determine 
how we are going to distribute that balance of funds across 
those who do apply.
    Mr. DAVIS. And my last question is that obviously, home 
visiting is an evidence-based intervention, which has been 
demonstrated to improve outcomes for pregnant mothers, 
parenting mothers and fathers, and their children. In your work 
on the evidence clearinghouse, are you leveraging the MIECHV 
clearinghouse, especially to find interventions appropriate for 
pregnant and parenting foster youth?
    Mr. MILNER. I am unable to tell you specifically which 
clearinghouses we are looking at, but I can tell you that we 
are looking very broadly. We also recognize that the home 
visiting programs have shown a tremendous amount of 
effectiveness in that area, and we have every interest and 
every desire to make sure that they are accessible and 
available to States and Tribes under the title IV-E prevention 
services funding.
    Mr. DAVIS. Thank you for being with us. Thank you, Mr. 
Chairman, for this very important hearing, and I yield back the 
balance of my time.
    Chairman SMITH. Thank you, Mr. Davis. And certainly thank 
you, Mr. Milner, for your participation here today. Please be 
advised that Members will have 2 weeks to submit written 
questions to be answered later in writing. Those questions and 
your answers will be made part of the formal hearing record.
    Now, I know that there were several questions asked today 
that you will need to follow up on. Can you say how long that--
how long it might take for you to be able to follow up on these 
questions that were posed earlier?
    Mr. MILNER. If we have the answers, we should be able to 
get those to you without much of a delay at all. I can't tell 
you that we have even formulated the answers to all of those 
questions, particularly when it gets to things like maintenance 
of effort and what is going to be included in that. We are 
still very much in the process of consulting with States and 
with Tribes.
    As I mentioned, yesterday we had a call with States to hear 
their concerns and to get their input. Twenty-eight States 
participated in that. One of those calls is going on today. 
Three more will be taking place. We have two more listening 
sessions coming up in August in Atlanta and in Denver coming up 
in August. We have several sessions planned with the Tribes to 
hear their unique concerns around this. I don't want to 
shortcut that consultation process, and that very valuable 
input by making all of those decisions without giving States 
and Tribes full opportunity to share their concerns with us. So 
we may not have answers to all of those questions, and if we 
don't have answers, we will absolutely let you know that and 
respond when we do have the answers.
    Chairman SMITH. Certainly. And I think you can appreciate 
the desire by the States and Tribes to have the timely 
responses.
    Mr. MILNER. I do.
    Chairman SMITH. With that I want to say thank you again, 
and the Subcommittee stands adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]
    [Member Submissions for the Record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    [Public Submissions for the Record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    

                                 <all>
</pre></body></html>
